No. 20-1203
IN THE SUPREME COURT OF THE UNITED STATES
_________________
MOOSE JOOCE, ET AL., PETITIONERS
v.
FOOD AND DRUG ADMINISTRATION, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE RESPONDENTS IN OPPOSITION, via e-mail and first-class mail,
postage prepaid, this 2nd day of June 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 5,179 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
June 2, 2021

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
June 2, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-1203
MOOSE JOOCE, ET AL.
FOOD AND DRUG ADMINISTRATION, ET AL.

TIFFANY H. BATES
CONSOVOY MCCARTHY PLLC
1600 WILSON BOULEVARD
SUITE 700
ARLINGTON, VA 22209
703-243-9423
TIFFANY@CONSOVOYMCCARTHY.COM
OLIVER J. DUNFORD
PACIFIC LEGAL FOUNDATION
4440 PGA BLVD.
STE. 307
PALM BEACH GARDENS, FL 33410
916-503-9060
ODUNFORD@PACIFICLEGAL.ORG
JEFFREY M. HARRIS
CONSOVOY MCCARTHY PLLC
1600 WILSON BLVD.
SUITE 700
ARLINGTON , VA 22209
202-243-9423
JFF@CONSOVOYMCCARTH.COM
DAMIEN MICHAEL SCHIFF
PACIFIC LEGAL FOUNDATION
930 G. STREET
SACRAMENTO , CA 95814
916-419-7111
DMS@PACIFICLEGAL.ORG

ILYA SHAPIRO
CATO INSTITUTE
1000 MASSACHUSETTS AVE., NW
WASHINGTON, DC 20001
202-218-4600
ISHAPIRO@CATO.ORG
J. GREGORY TROUTMAN
TROUTMAN LAW OFFICE, PLLC.
4205 SPRINGHURST BOULEVARD
SUITE 201
LOUISVILLE, KY 40241
502-412-9179
JGTATTY@YAHOO.COM
JONATHAN CALVIN WOOD
PACIFIC LEGAL FOUNDATION
3100 CLARENDON BLVD.
SUITE 610
ARLINGTON, VA 22201-5330
202-888-6881
JWOOD@PACIFICLEGAL.ORG

